U.S. Department of                        The Inspector General   Office of Inspector General
Transportation                                                    Washington, DC 20590
Office of the Secretary
of Transportation

April 8, 2010


The Honorable Patty Murray                 The Honorable John W. Olver
Chairman                                   Chairman
Subcommittee on Transportation,            Subcommittee on Transportation,
Housing and Urban Development, and         Housing and Urban Development, and
Related Agencies                           Related Agencies
Committee on Appropriations                Committee on Appropriations
United States Senate                       United States House of Representatives
Washington, DC 20510                       Washington, DC 20515

The Honorable Christopher “Kit” Bond       The Honorable Tom Latham
Ranking Member                             Ranking Member
Subcommittee on Transportation,            Subcommittee on Transportation,
Housing and Urban Development, and         Housing and Urban Development, and
Related Agencies                           Related Agencies
Committee on Appropriations                Committee on Appropriations
United States Senate                       United States House of Representatives
Washington, DC 20510                       Washington, DC 20515

Dear Chairmen Murray and Olver and Ranking Members Bond and Latham:

The enclosed briefing responds to the FY 2009 Omnibus Appropriations Act mandate
that requires the Department of Transportation's Office of Inspector General to report to
the Committees on Appropriations on any and all user fees paid by Amtrak to freight
railroads, irrespective of funding source, for access to the right-of-way and any incentive
payments paid related to on-time performance.

During fiscal year (FY) 2009, Amtrak paid $115.4 million in track usage payments to
owning freight railroads to access their rights-of-way. These track usage payments
accounted for roughly 3.3 percent of Amtrak's total operating costs for FY 2009 and
increased by approximately 16 percent over FY 2008. This growth in track usage
payments is primarily due to increases in incentive payments to owning freight railroads
because of significant improvements in the on-time performance of Amtrak's passenger
rail service.
CC-2009-072
While Amtrak does make track usage payments to owning freight railroads, it does not
pay an "access fee" for such use. The Railroad Passenger Service Act of 1970 grants
Amtrak priority access to freight railroads' rights-of-ways and requires that Amtrak
compensate owning freight railroads only for the incremental cost (rather than a
negotiated market cost) associated with accommodating intercity passenger services over
their tracks.

Some of the information contained in the enclosed briefing is business confidential and
protected from public disclosure under 5 U.S.C. 552. The public release of this business
confidential information could compromise Amtrak's negotiating leverage with freight
railroads and lead to increases in Amtrak's operating costs. Therefore, none of the
business confidential information contained in the enclosed briefing should be released
publicly without obtaining prior consent from Amtrak.

If you have any further questions concerning this letter or the enclosed briefing, please
contact me at (202) 366-1959 or Mitchell Behm, Assistant Inspector General Designate
for Amtrak, High Speed Rail and Economic Analysis, at (202) 366-1995.

Sincerely,



Calvin L. Scovel III
Inspector General

Enclosure




CC-2009-072
                                                                                                                           Enclosure
                                                                                                                         Page 1 of 11




                                      Amtrak Access Fees
                                      Department of Transportation
                                      Office of Inspector General
                                                  For Official Use Only
      Page 9 of this presentation contains confidential business information withheld from public disclosure under 5 U.S.C. 552
                             Information on page 9 of this presentation should not be publicly disclosed
CC-2009-072
                                                                           Enclosure
                                                                         Page 2 of 11



              Congressional Mandate
                 Pursuant to the FY 2009 Omnibus Appropriations Act the
                  Department of Transportation’s Office of Inspector
                  General (OIG) was mandated to report to the Committees
                  on Appropriations on any and all user fees paid by
                  Amtrak to freight railroads, irrespective of funding
                  source, for access to the right of way and any incentive
                  payments paid related to on time performance




CC-2009-072
                                                                                        Enclosure
                                                                                      Page 3 of 11



              Background – Amtrak
                 Prior to the Rail Passenger Service Act of 1970 (RPSA), freight
                  railroads were required by federal law to provide intercity passenger
                  rail service. However, this service tended to be highly unprofitable
                  and contributed to a deterioration in their financial condition
                 The RPSA created Amtrak to provide intercity passenger rail service,
                  relieving freight railroads from the financial burden
                      The RPSA grants Amtrak priority access to tracks owned by freight
                       railroads
                 Roughly 70% of the miles travelled by Amtrak trains are on tracks
                  owned by Class I freight railroads including:
                      CSX Transportation
                      Burlington Northern Santa Fe Railway
                      Norfolk Southern
                      Union Pacific Railroad Company
                      Canadian National Railway Company
                      Canadian Pacific Railway
CC-2009-072
                                                                                                                                  Enclosure
                                                                                                                                Page 4 of 11



              What are Freight Access Fees?
               Class I freight railroads own a majority of existing railroad
                tracks in the United States. Consequently, other rail
                operators must negotiate a fee to compensate freight
                railroads for access to their rights-of-way.1 The resulting
                payments are often referred to as “Freight Access Fees”
               Amtrak does not pay “freight access fees” for using freight
                railroad tracks
               As outlined in Title 49 of the RPSA—Amtrak is required only
                to compensate the owning freight railroads for the
                incremental costs associated with accommodating intercity
                passenger service over their lines



               1   Rights-of-way include the fixed infrastructure required for train operations, including tracks and signals
CC-2009-072
                                                                                                  Enclosure
                                                                                                Page 5 of 11



              Amtrak’s Track Usage Payments
                 The RPSA allows the incremental costs associated with Amtrak’s
                  usage of freight railroad tracks to include payment for:
                      Incremental maintenance costs resulting from Amtrak’s use of freight
                       railroad tracks;
                      Payments for incremental services provided by freight railroads to
                       Amtrak;
                        • Cost of developing and maintaining tracks and other facilities for Amtrak’s
                          exclusive use , and
                        • Payroll and related expenses
                      Incentive payments to compensate freight railroads for higher quality of
                       service; and
                      Offsetting penalties for poor on-time performance
                 Amtrak’s track usage payments are made on the basis of
                  contractually negotiated rates that generally attempt to
                  optimize the tradeoff between the incremental maintenance
                  cost component and the incentive payment component, which
                  vary by freight railroad
CC-2009-072
                                                                                                                            Enclosure
                                                                                                                          Page 6 of 11



              Incremental Maintenance Costs
                 Historically, two different methodologies have been used to
                  calculate incremental maintenance costs:
                        Speed Factor Gross Ton (SFGT) – promoted allocation on the basis of
                         activity (i.e. train traffic)
                        Weighted System Average Cost (WSAC) – Took it a step further and
                         accounted for the impact of the weight of a train on track wear and tear
                 In 1995, the Interstate Commerce Commission, predecessor to
                  the Surface Transportation Board,2 ruled that the WSAC was the
                  preferred methodology for determining incremental maintenance
                  costs because it took into account more of the relevant factors
                  that can influence track damage
                 The STB only gets involved with negotiations between Amtrak and
                  freight railroads when they cannot mutually agree on the basis for
                  determining incremental maintenance costs
              2   The STB is an economic regulatory agency that is tasked, among other things, with resolving rate and service
                  related disputes between and among freight railroads and Amtrak. Although the STB is administratively
                  affiliated with the Department of Transportation it is decisionally independent
CC-2009-072
                                                                                     Enclosure
                                                                                   Page 7 of 11



              Scope and Methodology
                 To conduct this review, OIG interviewed key Amtrak officials. OIG
                  requested track usage statistics and payment data for the last seven
                  fiscal years (FY 2003 through FY 2009) by freight railroad and major
                  payment categories:
                    Incremental maintenance costs
                    Incentive payments and offsetting penalties
                    Payments for incremental services
                 OIG planned to document the aggregate track usage payments made
                  by Amtrak to each of the owning Class I freight railroads and the
                  underlying rate per train mile broken out by aforementioned payment
                  categories
                 However, Amtrak considers this information as confidential since any
                  public knowledge of this information could significantly compromise
                  Amtrak’s negotiating leverage with the freight railroads
                 To accommodate Amtrak’s request for confidentiality, the scope of our
                  review was limited an evaluation of Amtrak’s aggregated track usage
                  and payment data
CC-2009-072
                                                                                                                 Enclosure
                                                                                                               Page 8 of 11



              Amtrak’s Track Usage Payments
                                      Figure 1: Amtrak’s Track Usage Payments3 (System-
                                             wide Activity: FY 2003 through 2009)




                                   Source: Amtrak
                     Amtrak’s track usage payments have ranged between $83.4 million and $115.4 million
                      between FY 2003 and FY 2009, which equates to roughly $3.26 to $4.44 per train mile
                      over the same period
                     The increase in FY 2009 track usage payments and payment per train mile stems from
                      a significant improvement in Amtrak’s on-time-performance
                           In FY 2009, track usage payments accounted for only 3.3% of Amtrak’s total operating costs
                  3   Note:- Amtrak’s track usage payments obtained from its audited financial statements
CC-2009-072
                                                                                                                              Enclosure
                                                                                                                            Page 9 of 11



              Status of Amtrak’s Operating Agreements
                 The basis for calculating Amtrak’s track usage payments are
                  defined in operating agreements (OA) with owning freight railroads
                 At the end of the minimum term of an OA, either party has the
                  right to give advance notice of their intent to terminate or
                  renegotiate the OA giving rise to the possibility of increases in track
                  usage payments and consequently Amtrak’s overall operating costs
                       Amtrak’s OA with the Information redacted pursuant
                                                                   (b)(4)  to Section (b)(4) of
                        the Freedom of Information Act (b)(4)

                       The minimum terms on Amtrak’s OAs with Information          (b)(4) redacted
                        pursuant to Section (b)(4) of the Freedom
                                                             (b)(4) Information Act
                                            4
                               (b)(4)

                       The minimum term on Amtrak’s operating agreement with Information (b)(4)

                        redacted pursuant to Section (b)(4)  of the Freedom of Information Act
                                                         (b)(4)


              4   Information redacted pursuant to Section (b)(4)(b)(4)
                                                                  of the Freedom of Information Act

                                                       For Official Use Only
                  This page contains confidential business information withheld from public disclosure under 5 U.S.C. 552
CC-2009-072                                  This information should not be publicly disclosed
                                                                                      Enclosure
                                                                                   Page 10 of 11



              Conclusion
                 Amtrak has certain statutory rights that are not afforded to
                  other passenger rail operators (i.e. commuter rail operators)
                  such as:
                      Priority access to freight railroad rights-of-way
                      Payment of incremental costs, rather than a market based “Freight
                       Access Fee”, associated with their use of freight railroad tracks
               Unlike Amtrak, other passenger rail operators must negotiate
                and then compensate owning freight railroads at an
                unrestrained agreed upon market rate, for access to their
                rights-of-way
               A comparison of the track usage fees paid by Amtrak to other
                passenger rail operators could yield unreliable results, especially
                in the current statutory environment



CC-2009-072
                                                                                      Enclosure
                                                                                   Page 11 of 11



              Issues for Consideration
                 As of the end of FY 2008, 14 states contracted with Amtrak for
                  supplemental train operations in an effort to:
                      Provide additional frequencies on existing Amtrak routes; and
                      Extend the reach of passenger rail services within their state or
                       region
               Unlike Amtrak, other passenger rail operators are required to
                pay an access fee rather than an incremental cost based fee to
                access owning freight railroads’ rights-of-way, which may result
                in higher operating costs
               With the current Administration’s increasing emphasis on
                intercity and high speed passenger rail service, Amtrak’s
                statutory protections give it a competitive advantage over other
                passenger rail operators


CC-2009-072
